'''Ylr,"
           ".t

                    DEPARTMENT OF HEALTH &. HUMAN SERVICES                                   Office of Inspector General



                                                                                              MemorandulT
    Date SE                   I 8 199 



       Richard P. Kusserow
    From Inpector General 





      U Ject

             " OIG Management Adviory Report:           "Medicae Prepayment Review - Pre ayment
               Utiltion Savigs, " OEI- 07- 89- 01681


                 Gail R. Wilensky, Ph.

                 Admtrator
                 Health Cae Financing Admtration


                 The Offce of Inspector General (OIG) recently conducted a program inpection 

                 the prepayment review process for Medicae Par B clai. One area of focu

                 during the revew was the verication of savigs claied to have been achieved by
                 the caers as a result of conducting medica reviews. The inpection was
                 determe if an audit tr    exited for those clai resultig in prepayment medical
                 review savigs and whether the savigs were correctly reported in the caers
                 quarerly Medica Review Report for Fisca Year
                 advisory report conveys the fiding   identifed
                                                                     (F    1989. Th management
                                                                  durg the inpection.
                 BACKGROUND

                 In December 1989; the Health Care Financing Admtration (HCF A) required
                 caers to establih an audit trai for al servces denied or reduced as a result of
                 medica review. Ths requirement followed a study of prepayment medica review
                 screens by HCFA in November 1988. Caer savigs due to prepayment controls
                 for front end medica necessity denials (Category 1) and HCFA mandated and caer
                 intiated screens (Category n) are maintaied and reported to HCFA on the
                 quarerly Medical Review Report as provided for in the Medicae Carers Manual
                 Section 7529. The HCF A uses the savigs data from the quarerly Medical Review
                 Report and the cost benefit ratios resulting from review activities   to   identif effective
                 prepayment screens and as a source for contractor evaluations.

                 METODOLOGY

                 We conducted on-site reviews at seven caers in early 1990. We asked caers 

                 provide a liting of all the Category I and Category n claims used to prepare the

                 Medica Review Report for the fourth quarer FY 1989. One carrer provided a

                 claims liting for the fist quarter FY 1990 instead, because data for the FY 1989

                 period was not available at the time of our review. A random sample of 30 claims

                 were selected for review from each carrer s listing. The savings resulting from the

                 sampled claims were then tracked to the Medical Review Report.
Page 2 - Gail R. Wilensky,    Ph.



FIING
Ca      have establihe relible system for        reportg meal     rev savi&f.
Based on the carrers ' control sheets , the review team was able to verify the accuracy
of the carrers ' reported savigs for 192 of 195 claims. We limited our sample to
claims , instead of 30 claims at one carrer, because the carrer could not provide a
universe of claims.  Twenty-nine of the 195 sampled claims had insuffcient
information in the control sheets to readily establish the validity of the savings.
However ,   upon further investigation ,   these claims proved to be valid.

Should there be any questions ,     please have your staff contact Barr Steeley at
FTS 646-3138.
